                                                                Issue Date
                                                                     January 27, 2012
                                                                Audit Report Number
                                                                     2012-NY-1005




TO:        Anne Marie Uebbing, Director, Office of Community Planning and
                                 Development, 2FD

            //SIGNED//
FROM:
            Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: The City of Newark, NJ, Had Weaknesses in the Administration of Its
         Homelessness Prevention and Rapid Re-Housing Program


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the City of Newark, NJ’s administration of its Homelessness
             Prevention and Rapid Re-Housing Program (HPRP) grant received under the
             American Recovery and Reinvestment Act of 2009 (Recovery Act). We selected
             the City based on our risk assessment, which identified the City as the second
             largest recipient of 23 HPRP grants administered through the U.S. Department of
             Housing and Urban Development (HUD) Newark, NJ, field office, and HUD’s
             2010 risk assessment, which assigned a score of 47 to the City, compared to a
             median score of 34 for all grantees. The audit objective was to determine whether
             City officials obligated and expended their HPRP funds in accordance with the
             Recovery Act and HUD regulations, and established and implemented adequate
             controls to ensure that HPRP funds were adequately safeguarded.

 What We Found


             While City officials expended funds within prescribed timeframes, they lacked
             adequate documentation to support that some funds were obligated in a timely
             manner and expended funds for ineligible and unsupported costs. Specifically,
             City officials lacked support that $243,534 was properly obligated by the
             September 30, 2009, deadline, expended $38,330 for ineligible activities or
           participants, and expended $18,341 without adequate supporting documentation.
           In addition, onsite monitoring of subgrantees was not conducted as specified by
           City policy. These deficiencies occurred because of weaknesses in controls over
           the administration of the City’s HPRP and City officials’ unfamiliarity with HUD
           regulations.


What We Recommend

           We recommend that the Director of HUD’s New Jersey Office of Community
           Planning and Development instruct City officials to (1) provide adequate
           documentation to support whether $243,534 was obligated in a timely manner (2)
           reimburse the HPRP line of credit for $38,330 expended for ineligible costs, (3)
           provide documentation to adequately support that $18,341 was expended for
           eligible costs, and (4) conduct onsite monitoring of the City’s subgrantees as
           specified in its HPRP guidelines.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided a draft audit report to City officials on December 21, 2011, and held
           an exit conference on January 9, 2012. City officials provided written comments
           on January 17, 2012. They generally agreed with the findings and stated that they
           have begun to make corrective actions based on certain findings, but did not
           address issues with 12 of the 14 participant files for which assistance provided
           was questioned.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objective                                                      4

Results of Audit

       Finding 1: The City Had Weaknesses in the Administration of Its HPRP   5

Scope and Methodology                                                         11

Internal Controls                                                             13

Appendixes
   A. Schedule of Questioned Costs                                            15
   B. Auditee’s Comments and OIG’s Evaluation                                 16
   C. Schedule of Deficiencies                                                22




                                            3
                          BACKGROUND AND OBJECTIVE

The Homelessness Prevention and Rapid Re-Housing Program (HPRP) is a new housing
assistance program administered under the U.S. Department of Housing and Urban Development
(HUD), Office of Community Planning and Development. It was funded on February 17, 2009,
under the American Recovery and Reinvestment Act of 2009, which provided $1.5 billion for
temporary financial assistance and housing relocation and stabilization services to individuals
and families that are homeless or would be homeless but for this assistance. Accordingly, HPRP
assistance is targeted at individuals and families that are (1) currently in housing but are at risk of
becoming homeless and need temporary rent or utility assistance or assistance to move to another
unit or (2) experiencing homelessness (residing in emergency or transitional shelters or on the
street) and need temporary assistance to obtain housing. HUD distributed HPRP funding based
upon the formula used for its Emergency Shelter Grant program.

In July 2009, HUD awarded more than $3.5 million in HPRP funds to the City of Newark, NJ,
which designated its Office of the Mayor to administer the program. City officials obligated
more than $3.3 million of these funds to four subgrantees. 1 Three subgrantees received more
than $2.7 million to provide direct financial assistance, such as rental and utility payments, to the
participants, and one subgrantee received $596,252 to provide legal assistance. HUD’s
Integrated Disbursement and Information System disclosed that as of November 29, 2011, City
officials had drawn down $2.8 million from the City’s HPRP grant, which represented
approximately 80 percent of its authorized grant of $3.5 million.

The objective of the audit was to determine whether City officials obligated and expended HPRP
funds in accordance with the Recovery Act and HUD regulations, and established and
implemented adequate controls to ensure that HPRP funds were adequately safeguarded.




1
  HUD’s Integrated Disbursement and Information System reported five projects with one subgrantee each;
however, there were four unique subgrantees because the City executed two grant agreements for two different
forms of HPRP assistance with one subgrantee.



                                                        4
                               RESULTS OF AUDIT

Finding: The City Had Weaknesses in the Administration of Its HPRP
While City officials expended funds within prescribed timeframes, they lacked adequate
documentation to support that some funds were obligated in a timely manner and were expended
for eligible and supported costs. Specifically, $243,534 was not obligated by the September 30,
2009, deadline, $38,330 was expended for ineligible activities or participants, and $18,341 was
expended without adequate supporting documentation. In addition, City officials did not conduct
onsite monitoring of subgrantees in accordance with City policy or adequately document the
results. These deficiencies occurred because of weaknesses in controls over the administration
of the City’s HPRP and City officials’ unfamiliarity with HUD regulations. As a result, City
officials could not adequately assure HUD that HPRP funds were obligated and disbursed in
accordance with HPRP and City requirements.



 HPRP Funds Not Obligated
 Within Required Timeframe

              HUD awarded more than $3.5 million in HPRP funds to the City on July 20,
              2009. HUD’s “Notice of Allocations, Application Procedures, and Requirements
              for Homelessness Prevention and Rapid Re-Housing Program Under the
              American Recovery and Reinvestment Act of 2009”, Section E, required grantees
              to obligate the funds by September 30, 2009. However, City officials lacked
              adequate documentation to support that $243,534, or 7 percent of the grant, was
              obligated as required.

              An estimated budget summary in the City’s substantial amendment to the 2008
              action plan showed that City officials budgeted more than $3.2 million for
              program services; $106,000 for data collection and evaluation; and $176,667, or
              the maximum allowable 5 percent, for administrative costs. City officials
              executed contracts in a timely manner in the amount of approximately $3.1
              million with three subgrantees by September 30, 2009. However, they executed a
              $243,534 contract with a fourth subgrantee in May 2010. City officials said that
              these funds were originally allocated for HPRP administrative costs but that they
              asked HUD to reprogram them to program services. However, City officials
              lacked documentation for the request or HUD approval. Further, even if the
              request had been approved, $127,201 ($3,250,680 budgeted plus reallocation of
              $243,534 less obligations of $3,367,014) would not have been obligated in a
              timely manner.




                                              5
    HPRP Funds Disbursed Within
    Required Timeframe

                 City officials disbursed HPRP funds in a timely manner and appeared to be on
                 target to expend all funds within the required timeframe. The HPRP Notice
                 required that 60 percent of HPRP funds be expended within 2 years of being made
                 available to a grantee and that 100 percent be expended within 3 years of that
                 date. HUD’s Integrated Disbursement and Information System reported that City
                 officials had drawn down $2.5 million, or 71 percent, of the authorized amount as
                 of July 31, 2011, thus complying with the 2-year timeframe. Further, HUD’s
                 system reported that 80 percent had been drawn down as of November 29, 2011.


    Subgrantee Monitoring Not
    Conducted as Planned or
    Adequately Documented

                 City officials did not conduct onsite monitoring of subgrantees as specified in its
                 policy, and the results of its monitoring were not adequately documented.
                 Regulations at 24 CFR (Code of Federal Regulations) 85.40(a), Monitoring and
                 Reporting Program Performance, require HPRP grantees to monitor grant- and
                 subgrant-supported activities to assure compliance with applicable Federal
                 requirements. The City’s HPRP policy manual specified that subgrantees would
                 be monitored quarterly. Two of the subgrantees with which grants were executed
                 by September 30, 2009, had received one onsite monitoring visit each (April 2010
                 and Feburary 2011, respectively), and the third had received two onsite
                 monitoring visits (April 2010 and May 2011) as of the end of our fieldwork.
                 Also, the subgrantee with which the grant had been executed in May 2010 had
                 received two onsite monitoring visits (June 2010 and May 2011). City officials
                 said that they conducted a technical workshop for the subgrantees on May 28,
                 2010, and often provided guidance to the subgrantees through emails and phone
                 calls and that they monitored subgrantees’ performance through the Homeless
                 Management Information System (HMIS). 2 We also noted that the City had its
                 subgrantees forward all supporting documentation with its requests for
                 reimbursements; however, this control would not address the eligibility of
                 participants or the costs paid on their behalf, as this would require onsite
                 monitoring, which did not appear to have been conducted quarterly as required by
                 City policy.

                 City officials reported for the 6 onsite monitorings of their subgrantees that 27
                 participant case files had been reviewed and that no deficiencies were present in
                 the award of assistance. Review of 11 of these files did not note any

2
  HMIS is an electronic data collection application that is managed and operated locally and that facilitates the
collection of information on persons who are homeless or at risk of being homeless. By statute, HPRP grantees are
required to report client-level data in HMIS or a comparable database.


                                                        6
            noncompliance issues that City officials would have identified. However, neither
            checklists nor other methods to document what was reviewed during these
            monitorings were contained in the file.

Reporting Requirements Met in
a Timely Manner

            City officials generally complied with HPRP reporting and other requirements.
            Initial, quarterly, and annual performance reports were generally submitted to
            HUD as required by the HPRP Notice. Before reimbursing the subgrantees, City
            officials verified the existence of the participants in HMIS. Subgrantees were
            required to submit monthly programmatic and financial reports, which included
            information on the number of participants served and the type and amount of
            assistance provided, copies of cancelled checks and bills paid to the participants’
            landlords and utility companies, and timesheets for subgrantee officials whose
            salaries were charged to HPRP. Review of a sample of salaries and
            administrative cost vouchers from the subgrantees disclosed that costs were
            reasonable, eligible, and supported by adequate documents.

Funds Disbursed for Ineligible
Costs

            Review of 46 participant case files for which $56,671was disbursed by the City’s
            four subgrantees disclosed that $38,330 was disbursed contrary to program
            requirements. This deficiency occurred because of weaknesses in controls over
            the administration of the City’s HPRP regarding determining participant
            eligibility and City officials’ unfamiliarity with HUD regulations. As noted
            below and detailed in appendix C, the ineligible disbursements were made on
            behalf of ineligible participants or for ineligible costs.

            Ineligible assistance                Number of cases      Amount disbursed

            Utility arrears in excess of 6               7                     $19,290
            months
            Rental and other assistance to               3                     $19,040
            ineligible participants
            Total ineligible costs                      10                     $38,330


            Ineligible Utility Assistance

            Utility arrears assistance of $19,290 provided to seven participants was ineligible
            because it exceeded 6 months. This condition occurred because City officials
            instructed the subgrantees to provide utility arrears assistance in excess of 6


                                             7
           months contrary to the HPRP notice, section IV, which limits utility arrears
           assistance to up to 6 months. City officials said that they decided to provide
           utility assistance in excess of 6 months to better serve the participants because
           soon after receiving 6 months of utility arrears, participants would return to cover
           their current utility bills. In addition, the identity of one of the participants was
           not properly supported because the name on the participant’s Social Security card
           was different from that on the participant’s driver’s license and the driver’s
           license reported a different address than that for which the utilities were in arrears.

           Rental and Other Assistance to Ineligible Participants

           Rental and other assistance of $19,040 was paid on behalf of two participants who
           did not meet HPRP requirements and one participant who did not meet the City’s
           program eligibility requirements. The HPRP notice, section IV, part D, provides
           that an individual or a household must be at or below 50 percent of the area
           median income upon entry into the program. However, $3,000 in rental
           assistance was paid for a participant whose income exceeded 50 percent of the
           area median income, and a $2,572 payment was being processed for a security
           deposit and rental payment for a participant whose income exceeded 50 percent of
           the area median income. Further, the file for this latter participant lacked
           adequate documentation showing that the participant was at risk of being
           homeless or lacked financial resources to secure housing.

           While the City’s HPRP policy required participants to be residents of the City for
           6 consecutive months, one participant did not meet this requirement. This
           participant was provided rental assistance of $10,580, utility assistance of $1,888,
           and moving costs of $1,000 to relocate from Mercer County to the City of
           Newark. In addition, a notarized letter from a friend was provided as proof of
           residency; however, the friend was an employee of the City and also acted as an
           agent for the landlord. Therefore, there was a possible conflict of interest, which
           is prohibited by the HPRP notice, section VII, A1.

Funds Disbursed for
Inadequately Supported Costs

           City officials disbursed $18,341 to five participants without adequate
           documentation showing that the costs were eligible. Files for two participants
           awarded $7,050 ($4,200 and $2,850) lacked adequate documentation showing that
           the households were at risk of losing their housing and did not have other
           financial resources as required. Section IV, D.3, of the HPRP notice requires that
           the household be either homeless or at risk of losing its housing and meet both of
           the following circumstances: (1) no appropriate subsequent housing options have
           been identified, and (2) the household lacks the financial resources and support
           networks needed to obtain immediate housing or remain in its existing housing.




                                             8
             Two participants did not meet the City’s 6-month residency requirements and
             were awarded $9,835 in rental assistance ($6,235+$3,600). While the HPRP
             regulations did not specify a residency requirement, the City’s HPRP policy did
             require a 6-month residency for a participant to be eligible. However, City
             officials sent an email to their subgrantees on July 27, 2010, announcing that there
             would no longer be a residency requirement but did not amend their HPRP policy
             manual. In addition, during our fieldwork, we noticed that subgrantee officials
             instructed some phone callers inquiring about HPRP assistance, who were
             nonresidents of the City, to contact their local HPRP grantee because they did not
             meet the City’s residency requirement. Therefore, the $9,835 disbursed as
             assistance to nonresidents was considered unsupported.

             Another participant was awarded $1,456 in utility assistance without adequate
             documentation showing that the participant or a member of his or her household
             had an account with the utility company or proof of responsibility to make utility
             payments, such as cancelled checks or receipts from the utility company. Also,
             the utility bill, in arrears for several years, was for service at an address different
             from that provided by the participant on the application for assistance.

Conclusion

             City officials had not established adequate controls to ensure that the City’s HPRP
             was administered in accordance with HPRP and City requirements. As a result,
             City officials could not assure HUD that $243,534 was obligated in a timely
             manner and that $56,671 was expended for eligible costs. This condition resulted
             from weaknesses in controls over HPRP administration regarding determining
             participant eligibility and City officials’ unfamiliarity with HUD regulations.

Recommendations

             We recommend that the Director of the New Jersey Office of Community Planning
             and Development instruct City Officials to

             1A. Strengthen controls over HPRP implementation to ensure that quarterly
                 onsite monitoring visits of subgrantees are conducted in accordance with the
                 City’s guidelines and that review of subgrantee participant files is
                 adequately documented.

             1B. Provide documentation to support that $243,534 was obligated in a timely
                 manner. If adequate documentation is not provided, HUD should request a
                 legal opinion on the applicability of the recapture provisions of the Dodd-
                 Frank Wall Street Reform and Consumer Protection Act to the unsupported
                 amount.




                                                9
1C. Reimburse the HPRP line of credit from non-Federal funds for $38,330
    expended for ineligible utility arrears, rental, and other assistance.

1 D. Revise its policy on reimbursement of utility arrears to comply with HPRP
     requirements as provided in section IV of the HPRP notice, thus ensuring
     that any of the remaining $700,000 in HPRP assistance used for utility
     assistance will be disbursed in accordance with HPRP guidelines.

1E. Provide adequate documentation to support the unsupported costs of $18,341.
    If adequate documentation is not provided, the HPRP line of credit should be
    reimbursed from non-Federal funds.

1F. Strengthen controls to ensure that subgrantees properly and consistently
    approve participants as eligible.

1G. Revise its policy manual to reflect any program changes related to participant
    residency requirements.




                                 10
                        SCOPE AND METHODOLOGY

The audit focused on whether City officials administered the City’s HPRP in compliance with
program requirements.

To accomplish our objective, we

   •   Reviewed relevant HPRP requirements and applicable Federal regulations.

   •   Interviewed officials from the HUD New Jersey Office of Community Planning and
       Development and the City’s Office of the Mayor, responsible for administering the City’s
       HPRP, and its subgrantees.

   •   Obtained an understanding of the City’s management controls and procedures through
       analyzing the grantee’s responses to internal control questionnaires and reviewing the
       City’s’ audited financial statements for fiscal year 2009.

   •   Analyzed reports on HPRP drawdowns from HUD’s Integrated Disbursement and
       Information System and Line of Credit Control System. We did not review and assess the
       controls over computer-processed data for the Homeless Management Information
       System (HMIS) or HUD’s Integrated Disbursement and Information System (IDIS), but
       used the data primarily for informational purposes. Assessment of the reliability of the
       data in these systems was limited to the data sampled, which was reconciled to the City’s
       records.

   •   Reviewed the City’s HPRP policy manual and subgrantee selection process.

   •   Reviewed the HPRP grantee agreement between HUD and the City and the subgrantee
       agreements executed by the City and its subgrantees.

   •   Reviewed the performance reports the City submitted to FederalReporting.gov and
       HUD’s E-snap reporting systems and the City’s subgrantee monitoring, programmatic,
       and financial reports.

   •   Selected a nonstatistically based sample of 35 HPRP participant files from the universe of
       535 participants who received assistance through the City’s three subgrantees to
       determine whether HPRP funds were disbursed for eligible participants and costs. In
       addition, we randomly selected 11 of the 27 participant files, which City officials
       reviewed during their onsite monitoring visits, to assess the adequacy of the monitoring
       of the subgrantees. The samples were not selected statistically, and, therefore, the results
       of our review cannot be projected to the universe.

   •   Selected a nonstatistically based sample of 22 vouchers totaling $243,884 from a
       universe of 85 vouchers drawn down for subgrantee salary and administrative costs to
       determine whether the funds were disbursed for eligible activities and adequately


                                               11
       supported. The sample represented 23 percent of the total disbursement of $1.1 million
       for salaries and administrative costs.

The audit generally covered the period October 1, 2009, to June 30, 2011, and was extended as
needed to accomplish our objective. We performed our audit fieldwork from August through
November 2011 at the City’s Office of the Mayor and three subgrantees offices.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

               •      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               •      Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

               •      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to the effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


                                                 13
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

             City officials had not established and implemented adequate policies and procedures
             to ensure

             •      Compliance with laws and regulations when they did not obligate HPRP
                    funds within the prescribed timeframe (see finding).

             •      That resources were safeguarded when City officials allowed funds to be
                    expended on ineligible program costs and for participants whose eligibility
                    was not adequately supported (see finding).




                                              14
                                    APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS


              Recommendation
                  number              Ineligible 1/             Unsupported 2/
                      1B                                            $243,534
                      1C                   $38,330
                      1E                                              18,341
                     Total                 $38,330                  $261,875



1/   Ineligible costs charged to a HUD-financed or HUD-insured program or activity that the
     auditor believes are not allowable by law; contract; or Federal, State, or local policies or
     regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                              15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                                   Auditee Comments

            City

              of    NEWARK
            Cory A. Booker
            Mayor
            Office of the Mayor



            January 17, 2012


            Mr. Edgar Moore, Regional Inspector General for Audit
            U.S. Department of Housing and Urban Development
            Office of Inspector General
            26 Federal Plaza, Room 3430
            New York, NY 10278-0068

            Dear Mr. Moore,

            Please find enclosed a response to the recent Homeless Prevention and Rapid Rehousing program audit
            exit conference held on January 9, 2012.

            Although there have been no official mandates, the City has begun making corrective actions based on
            certain findings of the auditor.

            Should you have any questions, or need additional information please contact me at (973) 733-3889.

            Sincerely,

            //SIGNED//
            Tonya R. Bryan
            Policy Advisor/HPRP Program Administrator

            Cc:        file


            Enclosures


            920 Broad Street *Room 200*Newark*New Jersey 07102* Telephone 973-7333-6400* Fax 973-733-5325* www.ci.newark.nj.us




                                                            16
            HUD Audit Observed Issues Response
            CONTRACT DEADLINE

Comment 1   After Homeless Prevention and Rapid Rehousing (HPRP) contracts had been executed, we realized the
            City had set aside more than its share of funds for administration. It was then we decided to enter into
            contract with another agency that had submitted a Request for Proposal and had the next highest score.
             This contract was then executed May 2010 for a two year period.

Comment 2   Because other HPRP grantees were releasing RFPs for year two funding, we were not aware of an issue
            either entering into contract with another agency. The City reached out to its local HUD Program Officer
            who informed the City that it was permissible to enter into contract with the additional agency.
            However, we did not receive this authorization in writing.

Comment 3   According to the City Office of Management and Budget, all funds had been allocated by the September
             30th deadline and contracts were accepted by the Municipal Council. (packet given to auditors during
            exit conference)


            PROGRAM COMPETENCY

            The City Administrators have participated in various HUD webinars for HPRP and continue to seek ways
            to learn more about administering the program. However, we co-facilitated a workshop last year at the
            Supportive Housing Conference on “HPRP Lessons from the Ground”, where we shared with colleagues
            what we learned in year one of administering HPRP.


Comment 4   Although the auditor noted we did not have a clear understanding of the initiative, we in fact read the
            entire NOFA and used it as a reference to create our HPRP Policy Manual.

Comment 5   Any weaknesses in controls over the program occurred due to the initiative being staffed by two
            individuals. Because the City is not a direct service provider, we rely on the expertise of our sub-
            grantees to comply with regulations we set before them in the HPRP manual.


            PROGRAM MONITORING

Comment 6   The City of Newark has closely monitored all program activities. Although site visits were not as
            frequent as mentioned in the Policy Manual, agencies were monitored regularly through HMIS. It is
            through HMIS that we were able to correct errors sooner, close cases and synchronize reimbursable
            activities provided. Because HPRP is a new program we used this liberty to modify the frequency of site
            visits.

Comment 7   Also within the manual is a list of provided documentation that must be in each file. This list was not
            required as a checklist document to be included in client files. However, upon site visit this list was
             used to ensure files contained all required documentation.



                                                                                                            2   I Page




                                                     17
             Program was also monitored by our State HMIS representative. It was also at that time we were able to
             correct any deficiencies in program delivery.

             REVIEWED FILES

             XXXXXXXXXXXXXXXXXXXXXXXX

Comment 8    Client HMIS #115991348: Review of consumers’ case file, the following finding was reported. The
             consumers’ initial intake application reported that her employment at that time was working for the
             Census Center of New York, and reported having one child earning an hourly rate of $20.25. Consumer
             was working on a seasonal basis, not working for the entire year. Additional income reported at that
             time, child support in the amount of $170.00 weekly, with a monthly income of $3,515.00 yearly that
             would be $42,180. The program income for a family of 2 is $35,050. We took in consideration that the
             consumer just started working at the time of the intake and the job reported was seasonal and what
             was reported on her income taxes, consumer reported a family of 4 with two additional daughters and
             one daughter was working as a beautician with an income of $18,250.

             Follow Up: ICM contacted consumer on 11/7/2011 to see how the consumer and the family were doing.
             This is a NESF programmatic requirement; Consumer stated that she was hired with the Census Bureau
             as a seasonal worker. Her employment started in November 2009 and ended August 2010, she is no
             longer living at the residence because the violent gang activity. Consumer lived out her lease and
             relocated to a safer neighborhood and she currently employed full time with the City of Orange.

             As a side note, 9 months of employment with Census Bureau totals a yearly salary of $31,636.00, which
             would be complaint with HPRP income guidelines.

             Utility payments

Comment 9    All utility payments that were given approval to be paid in full was based on a decision by the City
             Administration due to the over whelming demand of utility assistance needed. At the program
              inception utility payments were made only to cover the amount that restored service in a unit. What
             was occurring was that the client continued to fall behind because the balance was not paid in full, in
             turn we saw several return clients that had to be denied for assistance. As a service to assist the client
             with the goal of HPRP to sustain once the assistance was complete, the decision was made to pay bills in
             full so that the client would have a clean slate moving forward. This was done to increase the potential
             of not repeating the circumstance of needing assistance in the future.

             Lastly, as proof of burden, clients were required to produce a utility bill with a “shut-off notice”.
             Therefore, the full balance must be paid in order for services to remain active. Otherwise, the utilities
             would have been disconnected and client would have become homeless.


             XXXXXXXX

Comment 10   Client HMIS Number – 116446248: Conflict of interest that was involved by the City of Newark employee
             is being looked into. We were not aware that the City employee was as involved in the process as noted.




                                                                                                                3   I Page




                                                        18
Comment 10   She initially referred the client because of the initial program fliers that were distributed city wide to
             make constituents aware of the services. At the time of this case the employee did not receive any
             financial benefit or gain from assisting the landlord or tenant that were assisted. The employee was
             requested to have a meeting with the HPRP administrators to further investigate these findings.

             Per our meeting on 11/7/11 with City staffer, it was noted that she is realtor property manager
             separate and apart from her duties at the City of Newark. Said staffer is willing to answer any questions
             that auditors may have.

Comment 11




                                                                                                               4   l Page




                                                       19
                          OIG Evaluation of Auditee Comments

Comment 1   City officials acknowledge that a fourth contract was executed in May 2010.
            Therefore, the $243,534 contract was not obligated by September 30, 2009

Comment 2   The HUD “Notice of Allocations, Application Procedures, and Requirements for
            Homelessness Prevention and Rapid Re-Housing Program Grantees under the
            American Recovery and Reinvestment Act of 2009,” Section E required that
            grantees obligate all funds to any subgrantees by September 30, 2009. Thus City
            officials should have been aware of this requirement before executing the May
            2010 contract; further, no documentation was provided that HUD approved the
            obligation of the funds after the September 30, 2009 deadline.

Comment 3   Although City officials state that all funds had been allocated by the September
            30, 2009 deadline, documents provided at the exit conference disclosed that
            $3,289,814 of the available $3,533,348 had been obligated by September 30,
            2009, leaving $243,534 unobligated by the September 30, 2009 deadline .

Comment 4   While City officials mention the webinar and workshops that they participated in,
            the audit report also acknowledged that City officials expended funds and met
            reporting requirements in a timely manner, and noted the technical workshop and
            other technical guidance City officials provided to the subgrantees. However,
            while City officials may have read the entire NOFA, they allowed payment of
            utility arrears in excess of six months contrary to the provisions of the HUD
            “Notice of Allocations, Application Procedures, and Requirements for
            Homelessness Prevention and Rapid Re-Housing Program Grantees under the
            American Recovery and Reinvestment Act of 2009,” Section IV, which limited
            utility arrears assistance to up to six months.

Comment 5   City officials stated that they are not a direct service provider, and therefore relied
            on the expertise of their subgrantees to comply with program regulations.
            However, the City’s HPRP manual provides that City officials should conduct
            periodic site visits, which would have provided City officials with the necessary
            assurance subgrantees were complying with the HPRP regulations.

Comment 6   City officials agreed with us that site visits to the sub grantees were not conducted
            as frequently as required by the City’s HPRP policy. City officials also stated that
            they closely monitor their sub grantees through HMIS, as a way to modify the
            frequency of site visits. However, the use of HMIS would not address the
            concerns of eligibility of participants or the costs paid on behalf of potentially
            ineligible participants as stated in the report.

Comment 7   While City officials used the manual’s list of provided documents on site visits to
            ensure that files contained all required documentation; their site monitoring
            reports did not list all the client files reviewed nor document the specific results of
            each file reviewed.


                                              20
Comment 8     We concluded that the client was ineligible for rental assistance because
              documentation in the file supported that the client claimed a family size of three
              and total annual income of $42,180, which exceeded the 50 percent of the area
              median income limit of $39,600 as per the HPRP guidelines and the City’s policy.
              While City officials state that the family size is four, they did not include the
              $18,250 of income reportedly attributable to the fourth family member, which
              would result in total household annual income of $60,430, which exceeds the
              $43,800 income limit stipulated for a family size of four. If City officials have
              additional documentation that the participant was eligible, they should provide it
              to HUD during the audit resolution process.

Comment 9      City official agree that assistance of utility arrears was not made in accordance
               with HPRP guidelines, which limits assistance to six months arrears.

Comment 10 City officials stated that the potential conflict of interest is being looked into;
           however, they did not address the potential basis for client ineligibility;
           specifically, that the client did not meet the City residency requirement, and that
           the client be a resident of the City for six consecutive months in effect at the time.

Comment 11 City officials did not provide a response for the remaining 12 questioned cases
           noted in appendix C of the draft report.




                                                21
Appendix C
                         SCHEDULE OF DEFICIENCIES

HMIS        IDIS         Ineligible      Ineligible   Ineligible   Unsupported     Unsupported
award #     activity #   utility cost    rental       moving       utility cost    rental
                                         assistance   cost                         assistance


119378148     3492              $4,544                                    $1,456


118566448     3495               2,834


121328748     3495               1,974


118460848     3496               3,463


116928648     3684               1,499


117936648     3684               3,547


117375048     3684               1,429


115991348     3495                         $ 3,000


121432448     3496                           2,572


116446248     3492               1,888      10,580       $1,000


119716648     3492                                                                      $ 3,600


118134948     3492                                                                        6,235


117943348     3492                                                                        4,200


117881248     3492                                                                        2,850
            Total              $21,178     $16,152       $1,000           $1,456        $16,885




                                                22
